i
?\)

. Sli

Su^. „te Court, iTs.
FILED

UrO ®s

OCT 0 8 2020

No.

OFFICE OF THE CLERK

IN THE
SUPREME COURT OF THE UNITED STATES
OCTOBER TERM 2020

WILLIE GROSS - PETITIONER
vs.

DARREL VANNOY, WARDEN
LOUISIANA STATE PENITENTIARY - RESPONDENTS)

ON PETITION FOR WRIT OF CERTIORARI TO
UNITED STATES COURT OF APPEALS FOR THE FIFTH CIRCUIT

PETITION FOR WRIT OF CERTIORARI

WILLIE GROSS # 130126
GENERAL DELIVERY
LOUISIANA STATE PENITENTIARY
ANGOLA, LA. 70712

i* ' v1

U

^ ii"!■ 1'r;-v ij

*!: i !* c*l

J

v
;

, \

i

TABLE OF CONTENTS
QUESTIONS PRESENTED

.1

PARTIES TO PROCEEDINGS

1!

OPINIONS BELOW.

1

JURISDICTION.

.2

CONSTITUTIONAL AND STATUTORYPROVISIONS INVOLVED.

3

STATEMENT OF THE CASE.

,4

STATEMENT OF FACTS

..5

REASONS FOR GRANTING THE WRIT.

7

CONCLUSION.

39

IKDEX T.C)AF_FEM>I_CES

APPENDIX A - DENIAL OF COA FROM FIFTH CIRCUIT COURT OF APPEAL - DATED:
8/5/2020
APPENDIX B - JUDGMENT FROM DISTRICT COURT - DATED: 1/17/20219; MAGISTRATE R &
R 12/28/2018
APPENDIX C - OPINION OF STATE'S HIGHEST COURT,
APPENDIX D - OPINION OF STATE'S APPELLATE COURT,

{

TABLE OF AUTHORITIES CITED
CASES
Arizona v. Fuindnante,

.24

Blockburgerv. United States, 284 U S. 299,

10

Buncamv. Louisiana, 391 U.S. 145,149

11

Gray * Lynn, 6 F.3d 265,269 (5* Cir. 1993)

18

Kimmebmm v.Morrison, 477U.S.365,385 ....
Ltteasv. O’Dea, 179 F,3d 412
McQuggin v: Perkins, 569 U.S. at 133
O'Neal v. McNinclt, 513 U.S. 435 (1995)

.........23

18
.....35
.7

Patterson v. New York, 432 U.S. 197

14

State 9. BayUs, 388 So.2d 713 (La. 1980)

15

State v. Jones, 525 So:2d 1149

.8

State v. Colvin King, (La. No. 2015-KP-1283) 9/18/17

.33

State ExMeL Wiltie Gross, Jr. v. State, 2016-KH-1088

4

State v. Gross, 110 So. 3d 1173

.4

State v. Gross, 124 So. 3d 1091

4

State v. Lentz, 306 So.2d 683

.16

State v. Pierre, 125 So.3d 403,2013-0873 (La. 10/15/13)

.35

State v. Steel, 387 So.2d 1175,1177 (La. 1980)

10

Stricklandv. Washington, 466 U.S. at 694

18

SiilHvai w LoitManaL, 113 S. Q. 2078

11

Schutup, 513 U.8. at 329

35

t

United States v. Satinas 654 F.2d 319,3 24

.9

UJ5, v. rifumz* 180 F.3d 227......................

11

Washington v. Texas, 388 U S. 14

37

I

STATUTES AND RULES
28 U.S.Cp, § 1254(1)

.3

R.S. 14:64

.7

R.S. 14:30.1 (A)(2)

12

LACE. Art. 802
!

OTHER(S)
Fifth Amendment
Sixth Amendment
Fourteenth Amendment

!

12

■1

QUESTIONfS) PRESENTED

1. When a federal habeas court finds a constitutional error said that error had a substantial and
injurious effect or influence in determining the jury*s verdict, is such ail error ever harmless?
2, Tria counsel was ineffective for not objecting to structural error committed by trial judge
that mislead and confused the jury by way of erroneous jury instruction, that determined the
verdict.
3.. Whether defendant’s conviction was obtained in violation of the constitution of the United
States and the State of Louisiana in light of newly discover facts offered at co-defendant’s
motion for new trial resulting in the reversal of his conviction pursuant to highly inconsistent
testimony of State’s only witness against defendants on critical issues at both trials and argued
in the interest ofjustice?
4. Has the Louisiana State Courts Unreasonably Determined from the facts presented to it that
this Petitioner has not met his burden under the United States Constitution and established
United Slates Supreme Court Law when presenting newly discovered evidence?
5. Do all Defendant's have the Right to Present a Defense

f

;

LIST OF PARTIES

[ ] All parties appears in the caption of the case on the cover page.
[X] All parties do not appear in the caption of the case on the cover page. A list of all
parties to the proceeding in the court whosejudgment is the subject of this petition
as fot ows:

District Attorney
24th Judicial District
200 Derbtgny Street,
5th FL, Gjourthouse Annex
Gretna, iia, 70053

Louisiana Attorney General
1885 N. 3rd SL
P.O.Box! 94005
Baton Ro age, La 70804

i
i

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI

The Petitioner, Willie Gross, respectfully petition for a writ, of certiorari issue to review
the judgment, of the Fifth Circuit. Court of Appeals.
OPINIONS BELOW
pC ] For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix A to the
petition and is
[ X] reported at 2018 WL 7075234; or,
[ ] has been designated for publication but is not yet reported; or,
[X] is unpublished.
The opinion of the United States district court appears at Appendix B to the petition and
is

[ X ] reported at 2019 WL 251755 & 2019 WL 251755; or,
[ | ] has been designated for publication but is not yet reported; or,
[X] is unpublished.
[ X ] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix C to the petition and is
[ X] reported at & 124 So 3d 1091; or,
[ ] has been designated for publication but is not yet reported; or,
f ] is unpublished.
The opinion of the Fifth Circuit Court of Appeals, 110 So 3d 1173
appears at Appendix D to the petition and is
or,
’ has been designated for publication but is not yet reported; or,
' is unpublished.
1

I

JURISDICTION
[ X] For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was August 5.2020
[ X ] No petition for rehearing was timely filed in my case.
[] A timely petition for rehearing was denied by the United States Court of
Appeals on the following date;__________
and a copy of the
order denying rehearing appears at Appendix
[] An extension of time to file the petition for a writ of certiorari was granted
to and including _
(date) on
.(date)
in Application No.
The jurisdiction of this Court is invoked under 28 U.S.C. § 1254(1).
[ ] For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix.
[ ] A timely petition for rehearing was thereafter denied on the following date:
_______________ and a copy of die order denying rehearing
appears at Appendix
[1 An extension oftime to rile the petition for writ of certiorari was granted
(date) in
(date) on
to and including
Application No.
Hie jurisdiction of this Court, is invoked under 28 U.S.C. § 1275(a).

2

CONSTITUTIONAL AND STATUTORY PROVISION INVOLV ED
Fifth Amendment to United States Constitution: “No person shaii... be deprived of life,
liberty,, or property, except by due process of law.,”
Sixth Amendment to United States Constitution: “In ail criminal prosecutions, the
accused! shall enjoy the right... to have compulsory process for obtaining witnesses in his favor,
end to have the assistance of counsel for his defense.”
Fourteenth Amendment Section 1, to United States Constitution: “... nor shall any state
deprive any person of life, or property without due process of law.”

3
■i

STATEMENT OF THE CASE
A. STATE COURT PROCEEDINGS
On February 10,2011, Willie Gross, Jr, was indicted for (1) count. 2nd degree murder, (1)
count armed robbery by a grand jury in Jefferson Parish.
Gri February 15, 2011, defendant's attorney filed an omnibus packet of pretrial,
discovery and bill of particulars. (Trial Tr. pg. 26-32).
On March 2,2011 attorney Mark Nolting filed specific motion for bill of particulars, for
state to rimongst other things, designate the underlying felony the defendant was engaged in of
R.S. 14:30.1 (A)(2). (Ex. 1).
Oi March 14, 2011, defendant filed pro se omnibus packet of pretrial discovery and bill
of partial Jars motion. (Trial Tr. pg. 47-66).
On July 20, 2011, attorney filed a motion to compel discovery, and bill of particulars
request, (Trial Tr. pg. 164).
On August 1, 2011, ADA Ernest Chen at a motion hearing, assured the court and defense
that he wou Id provide pariicu lar answer (Trial Tr. pg. 361, L1 -22).
On November 14, 2011, in a hearing pretrial motions, Judge R. Petri denied defense
motions;for bill of particulars answers aid additional discovery in new indictment. No
transcript was provided by trial court of hearing.
On November 17, 2011, defendant was convicted of 2“* degree murder and armed
robbery.
On December 9, 2011, he was sentenced to serve life in prison on count one and fortyfive (45) years on count two. The sentences were to be served concurrently with credit for time
4

served and without the benefit of parole, probation, or suspension of sentence. A motion for
appealwas granted. (Rec. pp. 336,340-3).
Petitioner then filed his direct appeal which was denied on February 21,2013. State v.
Gross, 110 So. 3d 1173, 12-73. The Louisiana Supreme Court denied review on October 25,
2013. Stats * Gross, 124 So. 3d 109L 2013-0661.
Petitioner then sought post-convietion relief by filing an Application for Post Conviction
relief on April 9, 2014, which was denied on February 17, 2016. The Fifth Circuit Court of
Appeal denied on May 5, 2016, and Louisiana Supreme Court denied review on September
29,2017, State Ex Ret mttie Gross, Jr. v. State, 2016-KH-1088.
B. FEDERAL COURT PROCEEDINGS
On June 1, 2018, petitioner filed a writ of habeas eoipus petition in the United States
District Court, Eastern District, of Louisiana. On December 28, 2020, the Magistrate judge
recommended that petitioner's habeas eoipus petition be dismissed. Petitioner thereafter filed
an objection to the Magistrate report and recommendation. On January 16, 2020, the district
court judge issued an order adopting the magistrate judge recommendation to dismiss die
petition. On January 28, 2019 petitioner filed a notice of appeal and request for COA. On
December 28,2020 the district, court denied petitioner's request; for COA. Petitioner thereafter
filed a request for COA in the Fifth Circuit Court, of Appeal which the court, denied on August
5,2020.
STATEMENT OF FACTS
Calvin King and Willie Gross were in business together selling used cars. They had
about twenty cars on their lot land all were paid for. Calvin, however, had a side business and
5

he drew Willie into it. By his own admission, Willie played a part in the drug trade but he was
unwitting to sell it hand to hand or drive it on the interstate. Calvin King, the co-defendant,
knew Javier Sanitize and introduced Willie to him and Rene Izaguirre in 2007, It was
undiluted that Javier was a big time drug dealer. Willie Gross called him the “connect” and
who ym went to when you wanted a big amount of drugs.
Gn Nov 2, 2007, Willie admitted he was at the apartment along with Rene and Calvin.
He aw! Calvin were there to make an $84,000 drag deal with Javier and Rene. After awhile,
Javier w ent out to coiiect his "runners.” Runners were people who drove the drugs in cars
fitted with secret compartments. They parked the cars all over the city and Javier headed out to
collect them and the drugs. In the meantime, Marie cooked the cocaine up and Willie weighed
it. Rene and Calvin smoked and talked. When it was all cooked it came up 1/2 kilo short. The
three began searching the apartment. Marie got mad and kept getting in the way. Eventually,
she had i o be retrained to the bed using duet tape. When die complained it was hurting, Willie
united her from the bedposts, but he loosely put a belt and phone cord arcamd her writs and
ankles. The men did not find the remaining cocaine. In the meantime, Javier returned and a
deal had been worked out between Rene and Calvin for the missing amount. Willie and Calvin
left the apartment leaving behind Rene, Javiar and Marie. Calvin drove Willie to his car and
Willie headed back to his home in Baton Rouge. He and Calvin never discussed any plan or
I

intent to jkill Javier and was surprised when he heard Calvin was arrested for it. Willie left and
went to Houston. In December, he was arrested on a traffic stop and brought back to Louisiana.

!
!

6

REASONS FOR GRANTING THE PETITION
In its order denying COA, the Fifth Circuit, erroneously denied petitioner for failing to
show prejudice resulting from his counsel's failure to object, to the Trial Court, informing the
jury that, he was charged with the armed robbery of both Abreu and Sanchez, Petitioner
presents the below claims in support that this Honorable Court should grant certiorari,
1.)

TRIAL COURT ERROR

THal judge erred when he instructed jury to consider aimed robbery of victim in count 2
of indictment^ whom also was the victim in count 1, for which the felony murder was against
that lead to defendant's conviction on both indictment counts in violation of the Double
Jeopardy Clause of the Fifth Amendment. When a federal habeas court finds a constitutional
error and that error had a substantial and injurious effect or influence in determining the jury's
verdict, is such an error ever harmless. O'Neai v. McNinch, 513 U.S. 435 (1995).
Such was the outcome in the case at bar, by way of the court's jury instruction that
amongst other things, exposed defendant to double jeopardy, as well as convict defendant of an
offense te wasn't charged with in the indictment. First, by the non-designating of underlying
offense, the trial judge instructed the jury that they could find defendant was engaged in any of
the enumerated offenses to find him guilty of second degree murder, was an error directly
related to the jucage's decision to deny the defense bill of particulars requests and not require
state to furnish particulars. Thus, this set forth in the next phase of the trial judge's instructions
as to count (2) of the indictment under R.S. 14:64, armed robbery of Maria Abreu, to also
instruct the jury that defendant was chaiged with the armed robbery of Javier Sanchez, and
would have made the indictment defective as it were.
'■

•

.

7

■

"Defendant should not be prosecuted for felony murder and enumerated felony given
that double jeopardy bars separate punishment for lesser included offenses where defendant has
also been convicted of greater offense ” State v. Janes, 525 So.2d 1149 (La. App. 3 Cir. 1988).
In essence* in the case at ter* in count (1) for felony murder the jury were instructed that
they could find that the armed robbery was the underlying offense to murder and that they
could convict defendant of "armed robbery” of the murdered victim in the 2“l count of the
indictment also. Exposure to double jeopardy was present at this juncture and it would play a
major role in the subsequent jury deliberations. For instance, the juiy deliberated about an hour
then informed the court that they have a request. The request was for the judge to read again,
the statute(s) for second degree murder and manslaughter, which is the lesser included offense.
To be considered now, is that the state's theory, amongst other things, was that the
murdered victim may have been kidnapped by defendant. However, if the jurors already in their
previous deliberations considered the circumstantial evidence presented by the state in the
theory of kidnapping, then the jury's consideration of the lesser included offense establishes
that the state missed it's mark, and (2) jurors wanted to be sure to consider the elements of the
lesser included offense as well as any other offense to be considered in regards to felony
murder. This is where the exposure to double jeopardy previously, became a double jeopardy
violation, and played a major role in subsequent deliberations after requested instructions.
First consider that the judge instructed the jurors that the defendant is charged with the
armed robbery of Javier Sanchez and Marie Abreu. Although, the defendant is not charged by
indictment with the armed robbery of Javier Sanchez, the jurors previously deliberated this as
instructed by the trial judge (Trial Tr. pg. 843 L 30-31). Article 802 General Charge; Scope:
8
?

The court diall charge the jury (1) as to the law applicable to the case; (2)
that the jury is the judge of the law and of the facts on the question of
guilt or innocence, but that it has the duty to apply the law as given by die
court; and (3) that the jury alone shall determine the weight and
cr edibility of the evidence. State v. Ford, 37 La. Ann. 443 (1885); State v.
Webb, 156 La. 952,101 So 338 (1924), presuming in the case at bar, that
the jury reached a guilty verdict of defendant, as to the armed robbery of
Javier Sanchez as instructed they could. This is more than likely, being
tlie oily request fioin the jury involved count. (1) felony murder. The
significance of the requested jury instruction given by the judge
subsequently, referred to the aimed robbery as an offense they could now
consider as an underlying offense to felony murder. (Trial Tr. pg. 841, L
1-24).
Therefore as a result, the jury armed with already the guilty verdict for armed robbery of Javier
Sanchez against defendant, had no other choice but to convict defendant for felony murder as a
result of the trial judges erroneous instructions. These jury instructions singlehandedly violated
defendant's 5* Amendment right not to be tried twice for the same crime.
In United States v. Salinas, 654 F.2d 319, 324 (5*J Cir. Unit A Aug. 1981), the Fifth
Circuit Court of Appeals reversed a conviction even though the defendant had been convicted
for the same act for which he had been indicted. Still, because the jury charges allowed a
conviction for committing that ad in a manner different from that alleged in the indictment, we
found a iconstructive amendment. In fee Salmas indictment, the defendant was charged wife
aiding and abetting a bank officer in misappropriating bank funds. During the trial, the bank
officer was cleared of any connection to the defendant or to the misappropriation. But the court
instructed the jury they could convict for aiding and abetting any bank officer.

U.S.C.A.

Const. Amend. 5; LSA-Const. Art. 1 § 15; LSA-C.CrJP. art. 591. Louisiana Constitution Article
1 § 10 provides:

9

In all criminal prosecutions, the accused shall be informed of the nature
and cause of the accusation against him. Hie indictment or information is
regarded as the foundation of the prosecution and as the safeguard of the
accused against being prosecuted for a non-crime or, on the contrary,
against conduct so vaguely described as not to bar subsequent
prosecutions for the same offense.
Louisiana uses both the “Blockbuiger Test” and the “same evidence test” in determining
whether double jeopardy exists. State 9. Mmghn, 431 So,2d 763 (La. 1983). The “Bloekburger
test” was set out by the United States Supreme Court in Blockburgerv. United States, 284 LLS.
299,52 S. Ct. 180,76 L. Ed. 306 (1932), where the court stated:
The applicable rule is that where the same act or transaction constitutes
a violation of two distinct statutory provisions^ the test to be applied to
determine whether each provision requires proof of an additional fact
which the other does not.

The same evidence test has been adopted by the Louisiana Supreme Court and was
explained by the court in State 9. Steel, 387 So.2d 1175,1177 (La. 1980), as follows:
If the evidence required to support a finding of guilt of one crime would
also have supported conviction of the other, the two are the same offense
under a plea of double jeopardy, and a defendant can be placed in
jeopardy for only one. The test depends on the evidence necessary for
conviction, not all the evidence introduced at trial.
The same evidence test is somewhat broader in concept than 'Blockbuiger,' the central
idea being that one should not be punished (put in jeopardy) twice for the same course of
conduct. In the case at bar, the defendant was prejudiced from the pretrial denial of bill of
particular answers that they applied for, was told they would get, then not be furnished them.
This set the stage for the defendant to not be informed of the nature and cause of the

10

accusations against him as to the designation of the underlying offense in count (1) felony
murder. and count (2) armed robbery to not be informed as to the armed robbery of Javier
Sanchez
Subsequently, this caused the implementation of courts jury instruction to be read that
altered tiie jurors perception of the evidence to be considered, as well as the chafes defendant
was indicted for by grand jury. Thus, also violating defendant's grand jury rights, because
substantial factual differences existed between offenses. U.S. v. Nunez* 180 F.3d 227.
In consideration of the law and the facts, defendant's right to not be tried for the same
offense twice was violated and therefore warrants the reversal of conviction under the double
jeopardy clause of the fifth amendment.

Whether trial judge erred in giving erroneous jury charge to what
elements designated to be proven by state in order to convict defendant of
2“! degree murder, in violation of his due process rights requirement of
proof beyond a reasonable doubt, Fifth Amendment, and Sixth
Amendment rights that jury rather than ju<%e reach the requisite finding
of guilty.

In SuSivmi v. Louisiana* 113 S. Q. 2078, 508 U.S. 275 (U.S. La. 1993), the Court
stated what the fact finder must determine to render a verdict of guilty is prescribed by the due
process clause. The prosecution bears the burden of proving all elements of the offense
charged.
Tfie Sixth Amendment provides that “[i]n all criminal prosecutions, the accused shall
enjoy the right to a speedy and public trial, by an impartial jury.. ” In Duncan v. Louisiana

11

391 U.S. 145,149,88 S. CL 1444,1447,20 L. Ed.2d 491 (1968). We found this right to trial by
jury as it's most important element, the right to have the jury, rather than the judge, reach the
requisite finding of guilty.
Ttial judge did err when he twice gave erroneous jury chaige to be considered by jury
during deliberation of the essential elements to find guilt of defendant for 2“d degree murder.
LA. C.E. Art. 802 General Charge; Scope. The court shall charge the jury: (1) As to the
law applicable to the case; (2) that the jury is the judge of the law and of the facts on the
question of guilt or innocence, but that it has the duty to accept and to apply the law as given by
the court; and (3) that the jury alone shall determine the weight and credibility of the evidence.
Even though Const. (1921), Ait. XIX § 9 provides that the jury shall be the judges of the
law and the facts on the question of guilt or innocence, the jurisprudence makes it clear that the
jurors must accept the law as given to them in the charge by the judge and apply it to the
particular facts of the case. State r Ford^ 37 La. Ann. 443 (1885); State v. Webb^ 156 La. 952,
101 So. 338 (1924).
Ini the case at bar, defendant was charged with R.S. 14:30.1 (A)(2), and R.S. 14:64, both
separate counts and two different victims. After trial, the trial judge delivered the jury charge to
jurors on the R.S. 14:3G.1(A)(2), 2rai degree murder and all the enumerated offenses, prior to
these instructions the judge gave the following instructions:
A separate crime is charged on each count of the bill of indictment; each
count on the evidence pertaining to it should be considered separately
(Trial Tr. pg. 839, L -26-29), The judge then proceeded to give the nest
set of instructions:
We are to now consider the nature and character of the crime for which
the defendant is being tried, and what are it's ingredients, and what are the
12

essential elements necessary to constitute it. Willie Gross is charged with
the second degree murder of Javier Sanchez. Second degree murder is the
killing of a human being, one when the offender has a specific intent to
killer to inflict great bodily harm, or two, when the offender is engaged ra­
the peipetration of aggravated rape, forcible rape, aggravated arson,
aggravated burglary, aggravated kidnapping, second degree kidnapping,
aggravated escape, assault by a drive by drooling, armed robbery, first,
degree robbery, second degree robbery, simple robbery, cruelty to
Juveniles, terrorism ever though he had no specific intent to kill or inflict
great bodily harm.
Thus, in order to convict Willie Gross of second degree murder yen must
find (1) that Willie Gross killed Javier Sanchez, (2) that Willie Gross
acted with a specific intent to kill or inflict great bodily harm, or (1) that
Javier Sandiez was killed (2) while the defendant, Willie Gross, was
engaged in the peipetration of one of the enumerated felonies I just read
to you, even though he had no intent to kill or inflict great bodily harm.
(Trial Tr. pg. 841, L -19-32,842, L1-24).
Tiese were the chaiges the juiy heard prior to deliberations, yet after over an hour, the
jury carri e back with a request for thejud^e:
Jbry Foreman, Mr, Coon: Yes, we'd like to know the differences between manslaughter
and then guilty of second degree murder.
Tjie Court: Okay, I'll read the instructions again.. (Trial Tr. pg. 850, L- 1-24).
|
!

Tile trial judge went on to read the previous charge, that is, the entire 2“l degree murder
statute, as well as the (15) enumerated offenses under that statute. However, the only
enumerated offense that was an element needed to be proven by the state and considered by the
jurors was the 2*A degree kidnapping. Simply put, if the state did not prove that the defendant
kidnapped the victim, then the 2nd degree murder should not have been sustained.
Ajlso, the judge gave in his initial jury charge, that the separate count of the indictment
should not be considered as evidence to any other count. Yd, within his blanket instructions to
!

13

the jurors the first and second time, he included defendant's second count of his indictment
which was aimed robbery. In essence, by the trial ju<%e including the aimed robbery into the
lisi of enumerated offenses to be considered that the defendant was alleged to have perpetrated
within the commission of the 2nd degree murder, didn't preclude them from sustaining a guilty
verdict to the 2nd degree murder under the premises that they’d reached a guilty verdict to the
second cbunt of armed robbery prior to their deliberations on the 2“d degree murder.
Furthermore, the juiy could have very well been confused by the first instructions that
led to them asking for another chaige. The jurors could've not found that state proved it's case
as to (he 2ffii degree kidnapping then looked to die lesser offense of manslaughter to which they
asked for instructions, to which was a real possibility. But, instead of the trial jucfge giving the
one element that should sustain a conviction for second degree murder, he instructed (15) and
within hip chaige he specifically expressed, "one of the enumerated felonies I just read to you.”
(Ttial Tr. pg. 842 L-20-22), Thiswas dearly erroneous and reasonable doubt.
Clearly the trial judge gave the jurors a choice of the (15) enumerated offenses in order
to convict defendant that is contrary to prior instruction that instructed them that the counts of
the indictments were .separate and not to be considered evidence to the other count. Defendant
.1

1

avers that the judge decided the verdict, not the jury. As a result, the verdict was directed for the
state and never carried it's burden of proof beyond a reasonable doubt. What the fact finder
must determine to return a verdict of guilty is prescribed by the Due Process Clause. The
prosecution bears the burden of proving all elements of the offense [508 U.S. 278] charged,
See, eg., Paterson v. New Yoth, 432 U.S. 197, 210, 97 S. CL 2319, 2327, 53 L. Ed.2d 281
(1977).
14

I

Ais stated in Art. 802, the jury has the duty to accept and to apply the law as given by the
court. Ini applying the case at bar, the wrong law was given to the jury to consider. They were
allowed to pick and choose according to instructions. Defendant's attorney filed a motion for
bill of particulars and within the particulars he specifically asked that the underlying felony to
be proven by the state be designated. As such, the prosecutor was therefore limited in
i

.

establishing any of the felonies enumerated in La. R.S. 14:30.1. See State v. BqpJis\ 388 So .2d
713 (La. 1980).
Clearly, the judge failed to charge the jury as to the law applicable to the case. Hie
state's entire case as to the 2rd degree murder that occurred in another parish, centered around
allegations that defendant perpetrated a 2“l degree kidnapping. There is no reason for the jury to
be instructed that they could pick and choose between all (15) enumerated offenses as indicted
in the erroneous jury charge by trial judge.
Furthermore, the trial judge erroneously charged the jury within his instructions that: the
defendant is charged with armed robbery of Javier Sanchez and Maria Abreu. (Trial Tr, pg .843,
L 30-31), This is clearly erroneous instructions,, as such he has just instructed the jurors to
;j
eonsider the 2 count of armed robbery of Maria Abreu as an element to the first count of 2
:i

■ .

I

I

degree murder of Javier Sanchez. There is only an armed robbery, according to the indictment,
j

of Maria Abreu, it reads:
I

j
j
j
j
i

On or about November 2,2007, in the parish of Jefferson, State of
Louisiana, defendant's Calvin King, Willie Gross, Jr. and a third man
whose identity is unknown to the Grand Jury, by the use of force and
intimidation, while armed with dangerous weapons, that is, firearms,
intentionally took from the possession and within the immediate control
of Maria Abreu something of value, specifically, several thousand dollars
in cash which belonged to Javier Sanchez and Maria Abreu all in

! .

15

violation of Title 14. Section 64, pangraph A, and Title 14 Section A4.3
paragraph A, of the Louisiana Revised Statutes. (Trial Tr. pg. 21-22).
Irt essence, the indictment alleges that money was taken from (1) victim, and who
testified to this fact. There was no testimony to Mr. Sanchez being robbed nor was there an
indictment of defendant's for the armed robbery of but (1) of the alleged victims. There was no
testimony of nothing taken off of Mr. Sanchez's person by state's witness, as well as the fact
that Ms, AbFeu alleged to have given the defendant's this money well before Javier came home.
In earlier instructions to the jury by the trial judge as to count (1) and count (2) were as
such: “A separate crime on each count of the bill of indictment; each count on the evidence
pertaining to it should be considered separately.” (Trial Tr. pg 839, L 26-29). Clearly, the trial
judge has given (2) different charges. On one hand he instructs the jury to not consider the
counts together, then he charged the jury that defendant is charged with armed robbery of Javier
Sanchez mid Maria Abreu, in essence, combining the charges to make the armed robbery an
element of the 2“l degree murder. This is especially true when there is only one count of aimed
robbery of ewe victim.
:

As such, the defendant was subjected to a denial of constitutionally due process based on
an imprejper jury instructions on the charges and elements to be considered of both counts of
the indictment. Article 802 of the Code of Oimtnal Procedure the court shall charge the jury as
to the law applicable to a case mandatory charges to be given by the judge to the jury. This
provision has been interpreted to require the trial judge to charge as to each and every phase of
the case arguably supported by evidence, whether believed by the judge or not. State v. Lentz,
i

306 So.2d 683,

16

.?

In consideration of the law and the facts, defendant's right to due process of law in that
he be convicted only of proof beyond a reasonable doubt and that jury rather than judge reach
the requisite finding of guilty, was violated under the Fifth and Sixth Amendment. Thus,
requires la reversal of conviction and remand for new trial.

2)

INEFFECTIVE ASSIS TANCE OF COUNSEL

Trial counsel was ineffective for not objecting to druetural error committed by trial
judge that, mislead and confused the jury by way of erroneous jury instruction, that determined
the verdict
Ini the case at bar, Mr. Jordan had knowledge of the element that needed to be proven in
|

order foij defendant to be convicted of 2nd degree murder. On the pert of defense, no proposed
jury instructions were admitted to reflect nor designate the underlying offense to be proven.
Thus, this didn’t preclude the judge from giving the standard jury instruction that all
enumerated offenses could be considered. Such was the case, and the jurors were able to equate
the jury instructions of armed robbery of Javier- Sanchez to the underlying felony in 2nd degree
murder, iwithout being told different Simply put, once the jury convicted defendant for the
armed robbery of Javier Sanchez as they were instructed they could, the underlying felony
drifted. It would ultimately be considered as the element to the 2nd degree murder, evident by
j

the jury's request to hear the 2“l degree murder statute and die lesser included offense of
i

manslaughter.
When Judge Pitre gave the charge to the jury that the defendant was charged with the
armed robbery of Javier Sanchez, Mr. Jordan suppose to have objected to this constructive

17

amendment by the court. Failure to object to a jury instruction can constitute such a grave error,
!

See Qraij’ v. Lynn, 6 F.3d 265, 269 (5* Cir. 1993)(hoidtng that "the failure by defendant's
|

counsel to object to the erroneous instruction in question cannot be considered to be within the
wide range of professionally competent assistance”)
In Stricffiand ?. Wa&ington^ supra,, the court set forth a two-part test for determining
whether the performance of counsel is constitutionally deficient. First, a defendant must show
that counsel's errors were so serious that he or she was not functioning as the counsel
guaranteed by the Sixth Amendment. See /</., at 687. Second, a defendant asserting an
ineffective assistance of counsel claim must generally show that defense counsel's deficient
performance prejudiced the defense. To show "prejudice” under Strickland, the defense must
show that “there is a reasonable probability that, but for counsel's unprofessional errors, the
result of fie proceeding would have been different ” Strickland, 466 U.S. at 694.
As the court in Lucm v. O’Dea, 179 F.3d 412, counsel's failure to object to the jury
instructions in question rendered his defense that he did not shoot Zurta, meaningless. When
!

deciding cases arising within the federal court system, this court has held that conrtructive
amendments to an indictment are per se prejudicial, warranting reversal. See Ford, 872 F.2d at
1235.
Also in Lucas the court reasoned, we need net decide whether this per se principle is
|

applicablje to the habeas corpus review of cases arising from state courts, however, because we
|

conclude jhat the instruction in the present cases had the effect of directing a verdict of "guilty”
t

on fee murder charge. In light of fee failure of Lucas attorney to address the feet that the
constructive amendment was constitutionally impermissible, we find that (1) his performance
i.

18

below the level of competency required by Strickland, and (2) ‘there is a reasonable probability
that, buf fer counsel's unprofessional errors, the result of the proceeding wcaild have been
different" StricklmttL, 466 U.S. at 694.
Similarly, in the ease at bar, the defendant was charged with (l) count of armed robbery
in count (2) of the Grand Jury Indictment. The indictment for armed robbery, clearly is against
Maria Abreu as the events are vividly described as defendant's taking cadi that was in her
immediate possession with force and arms, (Ex. 20). The judge charged the jury that the
■i

defendant was charged with the armed robbery of Javier Sanchez and Maria Abreu. Defendant's
attorney Was obligated to object to this jury charge at this point. Mr. Jordan was obligated to
have reviewed the intended jury charge before it was given to the jury. As such, he breached his
duty in not doing so to ensure defendant would not be exposed to double jeopardy and charged
, for an offense he was never indicted, (Trial Tr. pg.843 L-30-31). Not only was there no
objection to the jury being charged with the armed robbery of Javier Sanchez, but the verdict of
armed robbery of Javier Sanchez was not objected to by Mr. Jordan, (Trial Tr. pg. 852 L 7-15),
Whether defendant’s conviction was obtained in violation of the constitution of the
United States and State of Louisiana, when he was denied Effective Assistance of Counsel at
trial, wMn structure errors within the jury instructions occurred and he failed to object, and as a
result, the jury was mislead and confused as to the essential element of the charged offense, feat
|

ultimately directed fee verdict in violation of fee 5* 6th, and 14th Amendments of fee
!

constitution.
To succeed on a Sixth Amendnent claim of Ineffective Assistance of Counsel, defendant
must show that there is a “reasonable probability,” which is a probability sufficient to
!'

19

;

undermine confidence in the outcome, that, but for counsel's unprofessional error, result of the
proceeding would have been different. U.S.C.A Const Amend. 6.
Inj fce case at bar, State presented no direct, evidence in regard to the 2nii degree murder
of Javier Sanchez in eount(l) of the indictment. Also, the State prosecuted defendant under
LK4-KS 14;30.1 A(2)^ alleging that defendant committed a 2degree kidnapping as the

J

underlying offense in count(l). State only fact witness, testified that she did not know if, Javier
Sanchez left their apartment under his own will. The following occurred in trial transcript of
state’s witness:
Q:

(By counsel)
The next question you were asked was; “an you can’t say that he left against
his will, his own will, is that correct? And your answer was: “I can’t, say.”
And the next question is; “Right. Okay, so as far as you’re concerned, he could
ha we left voluntarily? And your answer was: “I don’t know” Is that, the truth?
A:

(By Maria Abreu)
Correct, (Ex. 4, pg. 67, L-27, pg. 68, L-ll).

Hits testimony eliminates the State’s witness role in determining whether, Javier
Sanchez was ever kidnapped. No testimony was gives! by Shite’s witness in relation to the 2nd
.

degree murder of Javier Sanchez, either.
Arid the trial judge in reversing the conviction of co-defendant Calvin King, would
decree the following in regard to the evidence presented:
The Court:
“Through all the motions that we heard in this case and the history itself, I
have had a lot of problems with the testimony of Maria Abreu because of so
many inconsistencies that she’s had in her testimony. And this is a strictly
circumstances case against Mir. King. There were no witnesses who
testified that he committed the murder or he did the robbeiy other than
Maria Abreu who was not a witness to the murder, just to the events that
\

J
:j

20

took place in the apartment. I’m going to grant your motion of new trial:”
(Ex. 3, pg. 10, L-31-32, pg. 11, L-l-10).
What petitioner has established, is that there exists no siam dunk evidence in support of
the 2“‘ degr ee murder or 2nd degree kidnapping of Javier Sanchez; as admitted by State’s only
fact witness, and supported by Honorable Judge Robert A. Pitre, whom presided over both
defendants trials. However, the effects of the jury instruction would be catastrophic.
The trial court gave instruction that in order to convict defendant of 2rid degree murder,
he had to be engaged in any one of the enumerated felonies, I just read to you, even though he
had no intent to kill or inflict great bodily harm. (Trial. Tr. pg. 841, L. 24-32, pg. 842, L. 1-24).
No objection logged.
These set of instruction just gave the jury (13) other felonies to consider, other than the
underlying felony within the indictment, of 2nd degree kidnapping.
Then the trial judge compounded the damage by instructing the jury the following:
“In count(2) of the indictment, the defendant is charged with Aimed robbery of Javier Sanchez
and Marie Abreu(Trial. Tr. pg. 843, L. 30-31). No objection logged.
According to the indictment, count(2), defendant is charged with the Armed robbery of
MariaAbreo. (TrialTlr.pg.21-22).
By way of the aforementioned jury instruction, Judge Robert A. Pitre, (1) Constructively
amended the underlying felony in eount(l), (2) constructively amended count (2), by adding a
count ofArmed robbery of Javier Sanchez, and (3) relieved the state of it’s burden of proof.
Constitutionally deficient reasonable doubt instruction requires reversal of conviction,
and is not amendable to harmless error. (f.S. CA Const. Amend 6.

21

Duncan v. Louisiana, 391 US. 145, 149; SSS.Cl 1444, 1447, 20 LEd.2d 491 (1968).
We found this right to trial by jury in serious criminal cases to be “Fundamental to the
American Scheme of Ju&ice” and therefore applicable in ^ate proceedings. The right includes,,
i

.

of course, as its most important element, the right to have the jury rather than the judge, reach
j

the requisite finding of guilty.
i
The first prong of StiicMmuF^ two part tea is easily met. Trial attorney in the case at
i

bar, failed to object to jury instruction that changed the course of the entire defense.
I
The defense argued that the Statens only fact witness never witnessed the 2Kl degree
i

<j

kidnapping the state claimed defendant perpetrated in regard to the 2ml degree murder. (Trial
Tr. pg. 67, L. 27, pg. 68, L. 1-11).
]

Moreover, as to count(2) of the indictment for Armed robbery of Maria Abreo, State’s
|

only fact witness the defense was built around the fact that Maria Abreo had stolen portion of
the drugs that was purchased from her boyfriend. Her boyfriend was not present when
defendants realized the theft, then began to search the apartment.
However, without objection, defense attorney allowed the trial judge to instruct the jury
I

that defendant was charged with the Aimed robbery of Javier Sanchez, (who was not present at
i
l

f

the apartjnent) and Maria Abreo.
The state offered no evidence through testimony or otherwise to sustain a robbery of
|

Javier Sanchez, and nor is it included within the indictment.
|

In! the case at bar, defense counsel abandoned the entire defense theory of the case at the
jury instruction stage. “Relief may be warranted when a decision by counsel cannot be
justified as a result of some kind of plausible trial strategy.” Kimmchnan v. Morrison, 477
22
f

i

U.S. 361I» 385 106 S.Ct. 2574,91 L JEd.2d 305.
At the stage whereas the defense has rested and the jury is about to get the case in
deliberation, it would be hard preyed to think that sound trial ^rategy played a part in defense
counsel not objecting to instruction that, added a charge of Armed robbery to count (2), added
(13) other underlying felonies to convict defendant of 2nd degree murder
|

'

in count(l), and (3) relieved the State of its burden to prove beyond a reasonable doubt that
1

petitioner committed 2“* degree kidnapping, as welt as 2“* degree murder, without any direct or

I

testimonial evidence to either.
i

T^ie second prong of Strickland, suggest that petitioner must show that he suffered
prejudice as a resu It of his counsel’s deficient performance.
In the case at bar, do to counsel not objecting to the jury instruction to the 2nd degree
murder, it cannot be said that the jury, and net judge reach the verdict, nor whether petitioner
was ccfivicted beyond a reasonable doubt in light of the altered instruction.
As to the second count of the indictment for the chaige of Armed robbery, it cannot be
said that the jury did not use the Armed robbery of Javier Sanchez as the underlying offense to
2fa degree murder, (2) petitioner was convicted of a crime that he was not charged with by the
grand jury (3) petitioner was sentenced for the crime of Armed robbery of Javier Sanchez, (4)
petitioned was exposed to double jeopardy by way of the Armed robbery of Javier Sanchez, and
|

*

(5) petitioner was not put on notice of the charge of Armed robbery of Javier Sanchez until jury
instruction were administered.
It was the trial counsel’s duty and obligation to protect the lynch-pin of defendant’s case.
ii

There "was no preparations prior to trial in relation to Armed robbery being the underlying
23

■i

. ::
;

felony in LSA-HS. 14:30.1 A(2) in count (1) of the grand jury indictment; and nor were there
'!

any for the Armed robbery of Javier Sanchez. The defense case featured the lack of evidence
!

that suggested that defendant committed 2 degree murder kidnapping. Petitioner's attorney
;j

allowed the trial judge to change the course of the trial in the favor of the prosecutor, without
j

■ -

objectfori, in violation of petitioner’s right to Effective Assistance of Counsel at every critical
stage ofjhe trial. U.S.CA. Const Amend. 6.
A! structural error is a “defect affecting the framework within which the trial proceeds, .
rather th; tn simply an error in the trial process itself.” Arizona v. Fubnmtmbz, suptn.

3) NEWLY DISCOVERED EVIDENCE
Defendant proceeded to trial on November 15,2011, on charges of 2“* degree murder
and Anned robbery. The State rested its case on November 17,2011, (Trail trial, pg. 677, L.
19-20). Shortly afterward, defense moved for a post judgment of acquittal, (Trial Tr. pg. 678,
■

L. 28-32, pg. 679, L. 1-22). It was denied by trial ju%e after argument from defense claiming
insufficient evidence in that the State failed to prove its case beyond a reasonable doubt.
Subsequently defendant was convicted the same day on all charges and sentenced to life
imprisonment plus (45) years, (Trial Tr. pg. 336). Defendant Appealed.
Tile Louisiana Supreme Court, remanded from the court of appeal to consider the merits
ji

of petitioner’s claim No.#l 1, which is the claim presented here.
i!

“The district court is directed to apply the minimum standard for relief as set forth by

|J

the Supreme Court, in State v. Pierre, 13-0872, pp. 9-10 (La. 10/15)13) 125 So.3d 403.
i;

24
:•

i

Ini January of 2013, defendant’s co-defendant proceeded to trial, (2) months after
defendant’s conviction, and he to was convicted of 2“* degree murder and Armed robbery.
On June 20,2013, co-defendant’s attorney filed a motion for post judgment of acquittal
and a motion for new trial On September 13, 2013, the trial court heard arguments from the
State aid defense then granted a new trial for the co-defendant on grounds of the inecnsident
tertimony of State’s key witness on critical issues at both defendant’s trial The Louisiana
Supreme Court up-held this decision by the district court on September 18, 2017. See, State v.
Cabin Amg, No. 2015-KP-l 283.
•]

Defendant’s conviction was obtained in violation of his constitutional rights in light of
i

newly discovered facts that revealed major internal contradictions in State’s only witness
testimony against defendants at both trials that warranted a reversal of co-defendant’s
conviction.
In order to su^ain a conviction of the case at bar, State must prove beyond a reasonable
doubt there was a kilting when the defendant was engaged in the perpetration, or attempted
perpetration of 2M degree kidnapping even though there was no intent to kill or inflict great
bodily harm.
LSA-R.S, 14:44.1 (B)(1), 2“l degree kidnapping is defined as the:
"Forcible seizing and carrying of any person from one place to another
while the offender is armed with a dangerous weapon.”
Thus, in order for the verdict returned by the jury to have been legally sufficient there
murt haye been proof beyond a reasonable doubt that defendant’s forcibly seized Javier
Sanchez from his residence, while armed with a dangerous weapon, and maintained that

25

forcible seizure until the tine that. Sanchez was killed.
1

Ait trial, the State’s theory against, defendant, was that if the jury believed that the
defendant kidnapped Javier Sandiez from his apartment then tfie felony murder doctrine would
apply. Ihe problem with this theory is that there was no evident® whatsoever that Javier
Sanchez was kidnapped from his apartment. The only evidence regarding the conditions under
which Mr. Sanchez left the apartment, was Maria Abreo’s testimony at trial.
On September 13, 2013, motions filed challenging co-defendant's convictions were
heard anld ruled on by trial Judge R. Pitre. Within the court’s determination to grant, a. new trial
!

the following occurred; after arguments.
;!

]
:|

Hie Could:

:

"Through all the motions that we heard in this case said the history itself, I
have had a lot of problems with the testimony of Maria Abieu because of so
many inconsistencies that die’s had in her testimony. And this is a. strictly
circumstances case against A#. King. There were no witnesses who
testified (hat he committed the murder or he did the robbery other than
Maria Abreu who was not a. witness to the murder, just to the events that
took place in the apartment. Fm going to grant, your motion of new trial:”
(Ex. 3, pg. 10, L-31 -32, pg. 11, L-l -10).

T^e motions argued consisted of many critical issues that Ms. Abreu testified to in prior
hearingsj and transcribed statements she gave detectives as well as reports to other officers
connected to this case.
One of the critical elements of the State’s theory that their only witness witnessed a
kidnapping was disproved in trial testimony highlighted in co-defendant’s motion of pod
judgment of acquittal.

26

f

q:

(By counsel)
Pm goipg to direct your attention to the deposition that you gave to get out ofjail
and ask you if you remember answering questions about when Javier left the
apartment. Do you remember being asked under oath when asked about
approximately how long after he came in did he leave the residence, Javier*? Your
answer was, “It was seconds.” The next question you were asked was, “so you
can’t say that he left against his will, his own will, is that correct? And your
answer was “I can’t say.” And the next question is “Right. Okay. So as far as
you’re concerned, he could have left voluntarily?” and your answer was, “I don’t
know.” Is that the truth?

Ac

(By Marla Abreu)
Correct.

As explained in co-defendant’s motion; given this testimony, no reasonable person could
or should believe that the state proved beyond a reasonable doubt that Mr. Sanchez was
forcibly seized from his residence.

Given that the evidence of the killing was 100%

circumstantial, every reasonable hypothesis of innocence must be excluded. This cannot be
done in this case because the only fact witness in this case, Maria Abreo, provides a reasonable
hypothesis of innocence in her testimony.
Moreover, on direct examination A.D.A. Mr. Chen attempted to get Ms. Abreo to reveal
what die allegedly seen when she looked out of her 2nd story window:
Q:

(Mr. Chen)
Okay. What, did you do after the men left die apartment ?

!

A:

(Ms. Abreo)
I came to the window.

I

(Mr. Chen)
Why did you go to the window?

|
A:
I
Q:i

(Ms. Abreo)
To see if I was able to see something.
(Mr. Chen)

;

27

Were you able to see anything?
!
!

A:

(Ms. Abreo)
Some legs.

<3

(Mr. Oien)
Wliat. did you see, tell the court and the juiy what did you see, and where were the
fcgs?

A;
!

(Ms. Abreo)
Hiere was some by the driver side, somebody in the middle.

i

At this juncture,, it's clear that this witness cannot identify anyone inside the vehicle, let
alone determine whether or not they are being kidnapped.

But Mr. Qien with his next

!

question]!tries to make the witness say she’d seen Javier in the middle.
!

Q:i
I
!

(Mr. Chen)
Who was in the middle?
(Mr. Jordan)
Objection, your honor.

Q

Where were these legs when you saw—when you locked out the window?

A:

(Ms. Abreo)
In the back seat, in the middle of the back; seat..

Q:

(Mb'. Chen)
Whose legs were in die middle, bade seat?

!
!

(Ms. Abreo)
I suppose they were Ja vier’s.

As

(Hr. T. pg. 517, L. 12-32 through pg 518, L. 1-7)
i

Ini light of Mr. Chen virtually telling the witness to indicate that shefd seen Javier in the
!

back of t lis vehicle, she relented to say she “Suppose they were Javier’s,” and this was only
because the constant leading questions. However, from Ms. Abreo’s testimony she could not

nN

!.l

28
!
f

positively identify anyone inside of the vehicle, so there is reasonable doubt as to who was
actually {inside the vehicle. Moreover, Ms. Abreo never actually physically see Javier when he
|

1

■

sippogeclly was inside the apartment to know which way he left or the suspects.

Internal contradiction
Trial Judge R, Pitre heard evidence at the September 13, 2013, hearing that supported

I

his ruling in granting defendant’s co-defendant a new trial. Much of this evidence, and/or new
t

i

facts was abstracted from within defendant’s trial that occurred (2) months prior.
In; accordance to State v. Addison^ suptn; co-defendant’s attorney argued the internal
contradictions and irreconcilable conflict with physical evidence, when one witness testifies
againsS the defendant, and more importantly, at both defendant’s trial in the case at bar.
The first report to officer Chris Bassil
State’s witness told officer Bassil someone knocked at her door she looked out the
window and observed three black males. She said she did not answer and they left. Later she
|

went outside to smoke then three blade males approached her saying their car broke down, then
pu died her into the apartment and pu lied guns on her.
At trial, Ms. Abreo was asked:
Qi
All right. Now, the police officer that you first met with at Bud’s Broiler who
walked over to your apartment, do you remember telling him what happened?
A:

I believe so.

Q:

Did you tell him the truth?

A:'

Yes.

i

!

29

J

i
i

Q: Did you teii him regarding the three men aiming to your house, and I want
!
you to listen to this, did you tell the officer that you heard a knock at your door,
that you looked out your window and observed three black males at the door, that you
didn’t answer the door, did not answer die door and that the black males left?
t

Ax

l didn’t say that.

Q:

And if the officer said that, the officer would be lying?

A:

Apparently so because I didn’t say that.

i

!

Here we have Ms, Abreo’s trial testimony being contradicted by the first reporting
officer. Chris Bassil. Not only does she deny what Bassii said she said, but she labels him a
liar.
I

Knowledge of Javier Sanchez rirno dealing

. |

i

At trial Ms. Abreo told die jury that she had no knowledge that Javier Sanches was
i

involved ,in dealing cocaine.

Qi

Now, did you know on November 213d of 2007 that. Javier was involved in
dealing cocaine?

A:

No.

Q:

Do you remember giving a statement to Detective Frank on the first
statement that you gave to the police, Detective Frank Renaudin, do you
remember being a.sked questions at the detective bureau by the detectives?

A:

Yes.

Q:| And the que^ion that. Detective Frank Renaudin asked you on November die 3ld
wajs through the interpreter, "Does Javier sell cocaine*?” And your answer through the
interpreter was she thinks he did. Is that a true statement then?
A:!

Yes.

So again here we have a direct contradiction of her trial testimony on a very important
30

aspect oij this case.
Duct tape
Ms, Abreo testified at trial that the men who came in to her apartment duct taped her
mouth.

Q; Did any of the people that came into your apartment duct tape your mouih?
(Pg, 40, L. 1):
:

A: Yes
<Pg.40,L.15):
Did any of the men that came into your apartment dud tape, look at me, please.
put duct tape, the same gray tape, across your mouth? Yes or no

<35

As

I don’t remember.

!■

In literally the same breath, Ms. Abreo goes from telling the jury her mouth was dud
taped to she does not remember having her mouth duct taped. This was very important since
the photos of Mis. Abreo, shown to the jury show no evidence of her mouth being duct taped.
Ms, Abreo was asked about how she got loose from the dud tape that tied her feet
together.
Q:

You told Mr. Chen that they didn’t release you, that you got yourself out of

the tape that was on your body. Is that true?
!

Ad

Yes, I did untie myself from the bed pod...

(Pg. 47, L. 10):
!

Q:

Did the men who were in your apartment released you from the bed, being
tied to the bed*? Yes or no.
i

At

No.

;
!-

31

I
i

(Pg- 47, L. 16):
Q:
All right. I}m going to show you the statement that you gave to the police on
November the 31'1. Pve highlighted it in yellow. Detective Frank Renaudin asked you
were you ever tied, were you ever taped to the bed, and your answer, was, yes, they had
tied her to the bed and then released her. Is that, true?
Ai!

I untied myself on my own from the bed and they untie my hands and my feet.

Again a direct contradiction regarding a very crucial issue in this case. Another direct
contradiction in Ms. Abreo’s testimony was exposed regarding where the duct tape came from.
In her direct testimony Ms. Abreo was asked where did the duct tape come from and her
answers were, yet again, contradictory.
Q*

(Mr. Chen) Where did the duct tape come from? The roll of that tape?

A:

I do not know.

On cross-examination her story changed yet again.
Q>
■
1

A:-i
!

Q;;
I

Iil show you a statement you gave to the Jefferson Parish Sheriff’s Office
wherein you were questioned about the suspects.. And you were asked, did
this aispect take participation with tying her up with tape? And your answer was
die says, “He's the one who tied her up and whipping her twice with the
weapon”
I didn’t say that.
You didn't say that. Okay. I’d like to mark for purposes of identification
defendant’s exhibit number 18, which is a statement to Detective Todd
Reviere. IPs page 407. that was - - -and FU offer, file and introduce it into
evidence, and Fd request the jury view this statement .
Ms. Abreo’s view from window

In defendant’s trial held November of 2011, Ms. Abreo appears to ha ve done a 360° turn
regarding who and what, die seen and testified to on the issue most, critical to the State’s case.
(Direct Examination).
32

(Mr. Gien) Why did you go to the window?
Ac

To see if I was able to see something.

Q:

Were you able to see anything?

Ai:

Some legs.

Q: What did you see, tell the court and the jury, what did you see, and where were
the legs?
Ac

There were some by the driver’s side, somebody in the middle.

(Tr. T. pg. 517, L 15-22):
Iri the co-defendant’s trial held (2) months later, Ms. Abreo testified completely
I
different;. (Direct Examination).
Q:

(Mr. Chen) What did- - -who was in, who, if anybody, were you able to see
was or were in Javier’s expedition when you looted out of the window?

Ac
The only thing I remember that I was able to see were Javier’s legs that were in
front in between two others.
Clearly in the (2) months since the defendant’s trial, Ms. Abreo is either been coached or
is flat out lying in an effort to say what the State is leading her to say in order to prove their
theory, j
ini consideration of the newly discovered facts that co-defendant’s attorney argued in
regard to the testimony of the State’s only fact witness, it is within this Honorable Courts
purview ijto reverse the conviction of the defendant and grant him a new trial in the interest of
justice, as was previously done by the Honorable Court in State v. Cabin King, (La. No. 2015‘i

KP-1283) 9/18/17. Clearly the evidence introduced by the State was insufficient in that it did
not prove that the defendant kidnapped nor killed the victim, Javier Sanchez; and the testimony
\

j

33
:

given by Ms. Maria Abreo is highly cantradiative and is in total conflict with physical evidence
presented by the State rendering their theory insufficient to convict, and Ms. Abreo’s allegation
highly suspect. Ms. Abreo’s testimony has changed every single hearing she has attended, as
well as'statements and interviews. As Mr. Jim Williams argued, the only uncontradicted
testimony given by Ms. Abreo, is the fact that she never witnessed a kidnapping nor a murder.
Nevertheless, two (2) defendants were convicted. As such, defendant has submitted his
argument raising the question of whether the corpus delicti was proven by the State in order to
i

•

satisfy tjhe question of whether a crime was even committed. The evidence certainly ajggest
that the | defendant had nothing to do with it, rendering the jury verdict contrary to law and a
I-

violation of the defendant’s right due process ofthe law.
Petitioner avers that in this Honorable Court’s review of the newly discovered facts that
was not known or allowed at this trial, it would be very significant to his cause in proving his
innocence to allow this supplement of facts that was not allowed at his trial.
!

4) DEFENDANT’S CONVICTION WAS OBTAINED IN VIOLATION OF HIS
CONSTITUTIONAL RIGHTS IN LIGHT OF NEW FACTS THAT REVEALED
MAJOR INTERNAL CONTRADICTIONS IN STATE’S ONLY WITNESS
TESTIMONY, AS TO WHAT DETECTIVES COERCED HER TO DO IN THE
|
IDENTIFICATION OF DEFENDANTS.
Whether defendant’s conviction was obtained in violation of die Constitution of the
United States and State of Louisiana, in light, of newly discovered facts offered at. co-defendant,
motion j or post, verdict judgment of acquittal and motion for new trial, resulting in die reversal
of his conviction pursuant to highly inconsistent, testimony of State’s only witness on critical
issues at both trials.
34
1

I

STANDARD OF REVIEW

i1

State v. Pierre, 125 So.3d 403, 2013-0873 (La. 10/15/13). “Petitioner does not meet the
threshold requirement unless he persuades the district court that, in light of the new evidence,
!:

no juror, acting reasonably, would have voted to find him guilty beyond a reasonable doubt”
\

'

’

.

'

MtQiiggm * Petfiina> 569 U.S. at 133 S. Q, at 1928 (quoting Sckulup, 513 US. at 329,115
!:

■

S.Ct. at |868),
f

!;
I;

LAW AND ARGUMENT

i:

When faced with a conflict in testimony, the trier of fact is free to accept or reject, in
whole or in part, the testimony of any witness, State v. Ross, 760 So.2d 1256, 1259 (La. App.
r

5th Cir. i/17/00).
i:
I

In the absence of internal contradiction or irreconcilable conflict with physical evidence,
one witnesses' testimony, if believed by the trier of fact, is sufficient support for a requisite
factual finding. Stab; v. Stec, 749 So.2d 784 (La. 5* CSr. 11/303/99); State v. Addison, 788
So .2d 608 (5th Or.).

ii

The following was asked of State’s witness Maria Abreo pertaining to her identification

ji

of defendants.
Mr. Netterville (Ftetitioner’s attorney)
Q: Now, in both instances you identified photograph number five; is that correct?
A: Correct.
I:| :
0? When you identified photograph number five in both instances, did you find it
unusual that both photographs wou Id be number 5?
A: Yes.
i

;

35

;

Q: And, in fact, you did at least tell someone else that the police told you that the
persons you identified would be number five?
Mr, Pacrera (AJXA,)
Objection, unless we bring out the name of who die told. Barbara Riveria. Fulton or
Riveria.
Mr. NeiterviUe:
I would argue that that’s not a good objection, that if she told someone else that we could
later go into that on redirect, but Fll say it again Barbara Riveria Fulton.
By Mr. Netterville
Q:

You told Mrs. Barbara Riveria Fulton that the police told you that the
suspects would be number five?

A: Yes
Q: And why did you tell that to Mrs. Barbara Riveria Fulton?
A: Because I was confused and wanted to go home.

I
Uhder this gateway standard. State v. Pierre? supra, “the newly presented evidence may
indeed call into question the credibility of the witnesses presented at trial. In such a case, the
habeas court may have to mate some credibility assessments.” Schuhtp, 513 U.S. at 330,115
S.Q.at868.
In; the co-defendant’s subsequent trial, the trial judge setting as the thirteenth juror,
considered this in his assessment and reversed the conviction of Calvin King. Coupled with
the statements of this witness catling detectives reports lies, and denying having testified or
said transcribed testimony or statement^ he ruled the following: Judge Pertre:
; “Through all the motions that we heard in this case and the history itself, I
have had a lot of problems with the testimony of Maria Abreu because of so
36

many inconsistencies that she’s had in her testimony. And this is a strictly
circumstances case against Mr. King. There were no witnesses who
testified that he committed the murder or he did the robbery other than
Maria Abreu who was not a witness to the murder, just to the events that
took place in the apartment. I’m going to grant your motion of new trial:”
Petitioner never got the benefit of allowing the jury hear what, Maria Abreu testified to
about what the detectives toid her in regard to who would be in the fifth slot. It would be hard
pressed that the alleged victim would be helping the perpetrators of the crime. If the detectives
never sa id it then why of all things, would she say this? Under the minimum standard in State
v. Pierre, supm, at the least, and given this testimony, no reasonable juror would have
convicted in light of this revelation again& those detectives.
j

j

In light of the newly discovered facts that has lead to the reversal of defendant ’s co{

defendant conviction, defendant submits the same facts of the exact case in the interest of
|

justice that his reversal of conviction be granted by the Honorable Court.
St DENIAL OF THE RIGHT TO PRESENT A DEFENSE
i
:!

A criminal defendant has the Constitutional right to present a defense. U.S. Const
amend, 6; La, Const, Art 1 § 16; Washington v. Texas, 388 U.S. 14, 87 S.Ct. 1920,18 LJEd
;

1019 (1967); State v. Gremiffion, 542 So.2d 1074 (LA. 1989); State v. Vigee, 518 So.2d 501
V

i

j-

.

(LA. 1989). Due process affords the defendant the right of full confrontation and cross
|i

examination of the State’s witnesses. Chmabers v. Sfississippt 410 U.S. 284, 93 S.Ct. 1038,
!l

35 L.Ed.2d 297 (1973); State v. Mosby, 595 So.2d 1135 (La. 1992). It is difficult to imagine
rights more inextricably linked to our concept of a fair trial.
i:

In the present case, the defense sought to explore the police investigation of Rene
!;

Izaguirrewho by all accounts was the kingpin of the drug operation and the target of ongoing
3?

federal drug investigations. (Rec. pp. 665-8). It was his address at Harvard Street that had
been under DEA surveillance and he had not been seen or heard from since this incident. (Rec.
pp. 629-31). It was also to his address that the State’s only witness to allege Willie was
involved in an armed robbery or murder. Marie Abrew* went to immediately after the alleged
kidnapping. Finally* and perhaps most effective for the theory of defense had it been allowed
to be heard in front of the jury* was the fact that a bloody fingerprint was found on the
passenger door of Rene’s vehicle. This evidence was highly relevant and exculpatory and the
trial court failed to give a valid evidentiary reason for excluding it from Willie’s defense at
trial. It was evidence the jury should have heard. By not allowing the defense to make the case
that it was Rene Izaguirre who killed Javier or had him killed, the defense was hamstrung.
Rene was the missing link that explained why Marie went there first and was so hesitant to
make a report to to the police. It explained her various versions of events and why the police
had to charge her and not release her until she made a recorded statement. It also explained
why die was left with her jewelry on* but claimed the theft of jewelry* cadi and a computer
from the apartment in order to make a bogus armed robbery claim and distance herself and
Rene froth the actual drug deal going on in her apartment.
There was no valid evidentiary reason to exclude the evidence of the police investigation
into Rene Izaguirre regarding these very charges. The theory of the defense was that Rene and
the co-defendant Calvin took Javier away and kilted him after this drug deal. Willie was just a
minor player in their drug empire and he was dropped off at his car and was on his way back to
his home in Baton Rouge after the issue with the missing cocaine seemed to be resolved. It
was highly relevant evidence that Rene was a known kingpin under federal surveillance and
38

that a bloody fingerprint was found on the passenger side of his vehicle. The jury should have
heard it since it directly challenged the only element of the chaiges in que^ion in this case,
namely the identity of the perpetrator. The trial court erred in not admitting the evidence over
the defense’s objections. (Rec. pp. 665-8).
Petitioner has established that he is entitled to habeas relief.
Irii reading the above argument and ease authority, it is evident that the district court
misapplied federal law and the ruling made by the district court, was contrary to clearly

n

established federal law. Petitioner vigorously maintained that the denial of the right to a Fair
Trial as guaranteed by the Fifth and Sixth Amendment to the United States is the denial of a
federal right.
CONCLUSION
Hie petition for a. writ of certiorari should be granted.

M ... 1

Respectfully submitted.

4

(I

Date:_October *3

2020.

39

